2311 Douglas Street
Omaha, Nebraska 68102-1214

PIDCKLE

N...anLegal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www. cocklel egalbri efs. corn

No. 19-215
DARREL CONELL NEVELS,
Petitioner,
vs.
PIGGLY WIGGLY CORPORATION
and NASEEM JR. AJLOUNY,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR REHEARING in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
DARREL CONELL NEVELS (Pro Se)
P.O. Box 39755
Birmingham, Alabama 35208
Tel: (205) 230-1115
E-Mail: darrelnevels@gmail.com
Friend of the Court

RECEIVED
NOV 1 3 2019
OFFICE OF THE CLERK

SUPREME COURT, U.S.

Subscribed and sworn to before me this 8th day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38926

Attorney for Respondents
Piggly Wiggly Corporation and Naseem Jr. Ajlouny:
Robert M. Girardeau
Huie Fermanbucq & Stewart LLP
2801 Highway 280 South
Suite 200
Birmingham, AL 35223
(205) 251-1193
bgirardeau@huielaw.com

Other Interested Parties:
Piggly Wiggly Distributions
2400 J. Terrell Wooten Drive
Bessemer, AL 35020
No phone/email available.

